OIG Investigative Reports, Mount Pocono, PA  June 13, 2013 - Former Pennsylvania Charter School Operator Pleads Guilty To Federal Income Tax Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT of PENNSYLVANIA
NEWS
Former Pennsylvania Charter School Operator Pleads Guilty To Federal Income Tax Fraud
FOR IMMEDIATE RELEASE
June 13, 2013
The United States Attorney's Office for the Middle District of Pennsylvania announced that Dennis Bloom, age 58, of Mount Pocono, Pennsylvania, pleaded guilty today to tax fraud before U.S. District Court Judge Robert D. Mariani in Scranton.
According to United States Attorney Peter J. Smith, Bloom was indicted in March 2013 following his failure to report $180,000 in income and evaded approximately $57,813 in taxes.
Bloom is the former chief executive officer of the Pocono Mountain Charter School and Pastor of Shawnee Tabernacle Church, both in Mount Pocono.
A sentencing date was scheduled for the week of September 16, 2013.
The case was investigated by the Internal Revenue Service-Criminal Investigations and the U.S. Department of Education, Office of Inspector General. Prosecution is assigned to Assistant United States Attorney Lorna N. Graham.
****
Top
Printable view
Last Modified: 06/24/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov